                         Office of Inspector General
                      U.S. Department of the Interior




                     Semiannual Report
                        to the Congress

Message From the
Inspector General

O IG In itia tives

S i gnif icant
N arrative
S ummaries




October 2008
Symbol of freedom, the bald eagle is one of the
most photgraphed birds in the United States. It
appears as iconography on everything from coins
to statuary. Featured on the cover of the October
2008 Semiannual Report to the Congress, the eagle
reminds us of our responsibilities to fulfill the
ethical vision of the founders of the nation.
                 	   Contents				                    October 2008

Staff            	   Message From the
                 	   Inspector General	 			               iii
                 	
Editorial

Katie Balestra
                 	   OIG Initiatives					                  1
Donald Cairns    	
Scott Culver
Sally Dadjou     	   Significant Narrative Summaries	 5
Joann Gauzza
Roy Kime
Mary Maruca      	   Department-wide Issues				           5
Gary Mitchell    	   Bureau of Indian Affairs				        13
                 	   Bureau of Indian Education				      17
                 	   Bureau of Land Management			        21
                 	   Bureau of Reclamation				           23
Photography
                 	   Minerals Management Service			      25
                 	   National Park Service				           31
Bryan Brazil
                 	   Office of Insular Affairs				       35
Stock Photos
                 	   U.S. Fish and Wildlife Service			   39
                 	   U.S. Geological Survey				          41
Production
                 	   Appendices					                     43
Mary Maruca


Visit us at:
www.doioig.gov




                                                                    i
         The U.S. Department of the Interior (DOI) is a large, decentralized agency with more than
     67,000 employees and 236,000 volunteers located at approximately 2,400 operating locations across the
     United States, Puerto Rico, U.S. territories, and freely associated states. DOI is responsible for 500 million
     acres of America’s public land, or about one-fifth of the land in the United States, and 56 million acres of In-
     dian Trust lands. DOI also has responsibility for a variety of water and underwater resources, including 479
     dams and 348 reservoirs and approximately 8,526 active oil and gas leases on 44 million acres of the Outer
     Continental Shelf. Approximately 30 percent of the nation’s energy production comes from projects on DOI-
     managed lands and offshore areas. DOI scientists conduct a wide range of research on biology, geology, and
     water to provide land and resource managers with critical information for sound decisionmaking. DOI lands
     also provide outstanding recreational and cultural opportunities to numerous visitors worldwide.

         The OIG promotes excellence, integrity, and accountability in these programs. With less than 300
     employees, the organization is driven by a keen sense of mission and dedicated to providing products and
     services that impact mission results.

          Images on the following pages remind readers of the diversity of the Department’s stewardship responsi-
     bilities and the high ethical standards to which DOI must adhere in conducting the business of government in
     the best interest of their employers, the American public.




ii
ii
                                                                                                               NT OF TH
                                                                                                    ME                 E
                                                                                                  RT                       I




                                                                                              A




                                                                                                                           N
                                                                                            EP




                                                                                                                               TE
                                                                                      U.S. D




                                                                                                                                 RIO
                                                                                                                                  R
Message From the Inspector General
                                                                                      �                                           �




                                                                                                                                 AL
                                                                                      OF
                                                                                            Ag
                                                                                              en




                                                                                                                               ER
                                                                                        FI
                                                                                                  of




                                                                                                ts
                                                                                             E       P   osi




                                                                                           C
                                                                                                            tive




                                                                                                                           N
                                                                                                  OF             Ch
                                                                                                                    GE
                                                                                                             ange
                                                                                                          INSP
                                                                                                              ECTOR




      I am pleased to present the accomplishments of the Office of Inspector General for the
   Department of the Interior from April 1, 2008, through September 30, 2008.

       Several of the accomplishments highlighted in this Semiannual Report that concern the
   Minerals Management Service (MMS) investigations have received considerable press coverage,
   as well as congressional attention. Our earlier evaluation of MMS’ management of oil sales,
   however, shed far more substantive light onto the Royalty-in-Kind program operations.

        This report also contains some of the first products issued by our new Inspections and
   Evaluations unit. For example, one of our inspection reports found Fortune 500 companies
   were included in the DOI’s Small Business Goals; this was followed by a front page story
   in the Washington Post, which ran the third week in October, addressing the same issue
   throughout the federal government.

       We also highlight significant activity in Indian Country and the Insular Areas this reporting
   period, with our focus ranging from health care delivery in island communities to contract fraud
   to preparedness for violence in Indian schools.

       Finally, beyond the sensationalism generated by the MMS investigative reports, we report on
   other cases of ethics failures, which will remain steady in our sights until they are eradicated.

       The results and accomplishments we have highlighted in this report demonstrate our
   continued commitment to preventing and detecting fraud, waste and mismanagement as well as
   effecting positive change.




                                          Earl E. Devaney
                                          Inspector General




                                                                      Back to Toc                                                      iii
     Mission
        The mission of the OIG is to promote excellence, integrity, and ac-
     countability in the programs, operations, and management of DOI.


     Values
         The OIG operates as an independent oversight organization respon-
     sible to the American people, the Secretary, and the Congress to indepen-
     dently evaluate the operations of the Department of the Interior (DOI).
     Our core values are: Honesty and Integrity, Independence and Relevance,
     Fairness and Objectivity, and Professionalism and Competence.


     Goals
         The goals of the OIG establish the framework to position the agency
     in such a way as to be relevant and respected for its expertise and prod-
     ucts in the rapidly changing world of 21st century America. We continu-
     ously strive to evaluate our efforts to assure the accountability of DOI and
     our responsiveness to the needs of Congress and the American people.
     We seek to develop and maintain an organization whose ideas and perfor-
     mance results make us a leader in the federal government.


     Responsibilities
          The OIG is responsible for independently and objectively identifying
     risks and vulnerabilities that directly impact, or could impact, DOI’s abil-
     ity to accomplish its mission. We are required to keep the Secretary and
     the Congress fully and currently informed about problems and deficien-
     cies relating to the administration of DOI programs and operations. Ef-
     fective implementation of this mandate addresses the public’s demand for
     greater accountability and integrity in the administration of government
     programs and operations and addresses the demand for programs that
     work better, cost less, and get the results Americans care about most.


     Activities
          The OIG accomplishes its mission by conducting audits, inspections,
     evaluations, assessments, and investigations relating to DOI programs
     and operations. Our activities are tied directly to DOI major responsibili-
     ties and are designed to assist DOI in developing solutions for its most




iv
serious management and program challenges, most notably cross-cutting
or DOI-wide issues. These activities are also designed to ensure that we
keep critical issues prominent, which greatly influences key decision-
makers and increases the likelihood that we will achieve desired out-
comes and results that benefit the public.


DOI Management Challenges
     OIG programs help to meet DOI’s Management Challenges: Finan-
cial Management; Information Technology; Health, Safety, and Emergen-
cy Management; Maintenance of Facilities; Responsibility to Indians and
Insular Areas; Resource Protection and Restoration; Revenue Collections;
and Procurement, Contracts, and Grants.




                                                              As much a symbol of the West as
                                                              Half Dome, horses continue to
                                                              play a major part in rangeland
                                                              issues for many DOI bureaus.




                                                                                                v
Office of Inspector General
OIG Trends, Themes and Initiatives
Ethics in Government
    Some trends and themes we would prefer not to see. Ethics viola-
tions would be one of these. Unfortunately, this report contains more
than its share of highlights pertaining to ethics violations. Some of these
incidents have already received significant coverage in the press and by
the Congress. Others have not.

    Headlines, however, have never been our goal. Rather, our goal
has always been, and is today, to effect positive change. To this end,
we credit Secretary Kempthorne and his senior leadership for their
receptiveness and responsiveness to the findings and recommendations
contained in all of our reports and particularly for taking swift action in
response to the most serious misconduct exposed by our investigations.
Implementing controls and competencies, however, is far easier than
imparting character. The OIG remains committed to effect positive
change in the ethical culture of DOI.

Responsibilities to American Indians
and Insular Area Citizens
     While our investigations into ethics violations are reactive, our ef-
forts in regard to DOI’s responsibilities to American Indians and Insular
Area citizens were much more proactive. We reviewed the implemen-
tation of Indian Affairs’ motor vehicle policy to ensure that the bureau
was protecting the lives of its employees and the public. We focused on
safety in Indian schools, and we targeted health care in the Insular Areas.

     Overall, these programs and policies intended to serve American
Indians and Insular Area citizens are failing to deliver. Indian Affairs has
ineffectively implemented the motor vehicle policy, has failed to consis-
tently perform background checks on Indian school employees, and is
woefully unprepared to address potential violence in Bureau of Indian
Education-operated educational facilities. In the Insular areas, we found
alarming financial mismanagement at a Virgin Island hospital, which, in
turn, resulted in the firing and indictment of the chief financial officer,
chief executive officer, counsel and board chair. Overall, the shocking
state of health care delivery in the Insular Areas served as the centerpiece
to a Health Care Summit hosted by Secretary Kempthorne and attended




                                                                                            1
                                                                              Back to Toc
    by representatives from the Departments of Health and Human Services,
    Veterans Affairs, and Defense, culminating in a Joint Statement of Re-
    solve to improve health care services in the Insular Areas.

    New OIG Herndon Leadership Training Center
         OIG opened its new leadership training center in Herndon, on sched-
    ule, August 1, 2008. This small, but state-of-the-art, center is capable of
    video conferencing among three major OIG offices – Herndon, Denver,
    and Sacramento. Already fully booked well into 2009, the center will
    be made available to employees from other OIG offices for community-
    wide training events, such as the American University Leadership Course
    Sessions and “Honest Services Fraud Awareness” training that will be
    scheduled in December of this year.




2
Construction of the Capitol was initiated under
President George Washington in 1793 on a site
chosen by Pierre L’Enfant. The building was the
focal point around which the city was designed.




                                                  3
    Department-wide Issues




4
DOI Has Failed To Address
Abandoned Mine Land Hazards
     We are gravely concerned that the Department of the Interior (DOI)
has put the public’s health and safety at risk by not addressing hazards
posed by abandoned mines on federal lands. Mines located primarily
in the western states of California, Arizona, and Nevada have danger-
ously dilapidated structures, serious environmental hazards, and gaping
cavities, some of which are capable of swallowing an entire vehicle.
We identified serious environmental and safety hazards where members of
the public had been killed, injured, or exposed to dangerous environmen-
tal contaminants. The potential for more deaths and injuries is ominous.
Growth of the population and use of off-road vehicles in the West will
increase the likelihood of additional deaths or injuries.

     At several Bureau of Land Management (BLM) sites we visited, we
found dangerous levels of environmental contaminants, such as arsenic,
lead, and mercury. These contaminants are easily accessible to visitors
and local residents, often without their knowledge. Even more disturbing,
we found that BLM supervisors told staff to ignore these problems, and
that employees were either criticized or threatened with retaliation for
identifying contaminated sites. While BLM has the clear majority of
abandoned mine sites on DOI lands, we also found that it has an inef-
fective program to address them. BLM’s abandoned mines program has
long been neglected and marginalized by poor management practices,
insufficient staffing, and a lack of resources.

      In contrast, NPS has mitigated many of its high-risk, easily accessi-
ble abandoned mine sites. However, hundreds, if not thousands, of sites
still remain and need to be addressed. At one park, the abandoned mine
inventory includes more than 600 sites, and NPS officials have inspect-
ed less than half of the sites on the park’s 1.4 million acres. Current
funding is inadequate to address these hazards, and NPS has failed to
develop a credible estimate of the total cost of mitigation.

     The overall solution for cleaning up abandoned mines is not simple.
It calls for a complex and concerted effort on the part of DOI, including
the immediate mitigation of known hazardous sites, a calculated effort
to identify and inventory unknown sites, a methodical design to address
abandoned mines comprehensively, and a strategy to secure the
necessary funding for this costly endeavor.




                                                                                        5
                                                                          Back to Toc
    Leasing Crisis Looms
         GSA issued a new bulletin in November 2007 on delegated leases.
    Under these new leasing regulations, federal agencies are no longer
    permitted to lease general purpose space in excess of 19,999-square
    feet without first receiving GSA approval. They also must notify GSA
    18 months prior to exercising options to extend existing leases. Most
    DOI bureaus use the delegation of leasing authority, which allows
    them to assume leasing responsibilities and avoid relying on GSA to
    obtain space.

        While DOI has taken steps to respond to the new regulation, weak
    oversight, errors, and gaps in the bureaus’ leasing data will impact
    DOI continuity of operations if they are not promptly addressed. We
    found that:

    u DOI must prepare for the expiration of 118 delegated leases on
      June 30, 2009, by requesting new delegations or leasing space
      through GSA.

    u Leasing data pertaining to DOI and DOI bureaus are neither
      reliable nor readily available. In early April 2008, we asked the
      seven DOI bureaus for the expiration dates of all leases. GSA
      had requested similar information in mid-March 2008. Most of
      the bureaus had difficulty providing this information. Eventually,
      all bureaus provided us with lease expiration dates, except the
      National Park Service (NPS). Only the National Business Center
      was able to provide timely and accurate data.

    u Several bureaus incorrectly classified the types of delegations used
      to lease space. For example, the Fish and Wildlife Service (FWS)
      misclassified approximately 99 of its current leases. Of these, 86
      leases for office space, warehouses, and family housing were
      obtained under a special purpose delegation that FWS is not
      authorized to use. In another example, NPS inappropriately re-
      ported 8 leases for office space and 17 leases for warehouse space
      under the categorical delegation. If NPS is obtaining office space
      without a general purpose delegation from GSA, then it is violat-
      ing GSA rules.




6
Fortune 500 Companies Included
As Part Of Small Business Goals
     In the Small Business Act of 1953, Congress voiced its conviction
that the federal government should “aid, counsel, assist, and protect …
the interests of small business concerns … to insure that a fair propor-
tion of the total purchases and contracts … be placed with small business
enterprises.” Each federal agency establishes an annual goal represent-
ing the maximum practicable opportunity for small business concerns to
participate in the performance of contracts let by that agency.

    OIG found about $5.7 million in awards to large businesses for
which DOI received small business credit in Fiscal Years 2006 and 2007.
Several of these businesses were obviously large, such as Dell, Home
Depot, John Deere, Sherwin Williams, Waste Management, and Xerox.
These awards were included in the accomplishments reported by DOI’s
Office of Small and Disadvantaged Business Utilization and in the SBA’s
Goaling Reports for Fiscal Years 2006 and 2007.

     OIG determined that contracts to large businesses were incorrectly
coded as small business contracts primarily as a result of data entry
mistakes, reliance on incorrect data, and failure on the part of contracting
officers to verify business size.


OIG Reports Improper
Relationships At OST
     In May 2006, OIG reported on its investigation of allegations
concerning improper relationships between senior Office of Special
Trustee (OST) officials and the principals of Chavarria, Dunne & Lamey
(CD&L), an OST contractor. This investigation determined that, over a
period of years, OST had awarded and continued to extend and expand
without competition a CD&L contract for trust fund accounting and risk
management services. This occurred while the three most senior of-
ficials in OST engaged in extensive outside social activity with CD&L
executives. We also found that OST contract personnel felt pressured by
senior OST officials to continue to award work to CD&L. In our 2006
case, the appearance of preferential treatment was noticeably apparent.




                                                                               7
         This investigation was followed by a 2-year probe into allegations
    that Delano J. Lords, Deputy Special Trustee, OST, provided prefer-
    ential treatment in the award of a $2.4 million contract to CD&L. The
    investigation determined that an OST selection panel had unanimously
    recommended another vendor for the award based on the vendor’s
    lower bid and technical score. Although Lords had previously re-
    cused himself from matters involving CD&L because of his personal
    relationships with CD&L officials, he used his position and authority
    to order subordinates to award the 2005 contract to CD&L. Lords’
    involvement in awarding the contract came 2 months after he had
    resided with one of CD&L’s principal officers. The investigation de-
    termined that Lords failed to report his acceptance of free lodging on
    the Public Financial Disclosure Report he filed with DOI.

         Our investigation also found that Margaret Williams, Deputy Spe-
    cial Trustee for Trust Accountability, OST, improperly accepted and
    incorporated language provided by CD&L into the statement of work
    for a 2007 contract in which CD&L was involved as a subcontractor.

        In June 2008, the matter involving Lords and Williams was
    referred to DOI for appropriate administrative action subsequent to a
    DOJ decision not to prosecute the case. Administrative action remains
    pending in this matter. The OIG investigation led to the OIG audit that
    focused on contract deliverables by CD&L.


    Chavarria, Dunne, and Lamey, LLC,
    Contract Deliverables Questioned
        DOI could neither consistently demonstrate that it received full
    value for the money spent, nor substantiate the receipt of timely and
    quality deliverables on contracts with Chavarria, Dunne & Lamey
    LLC, (CD&L). Specifically, we found:

    u	Four cases, totaling approximately $5 million, where DOI could
      not demonstrate that it received full value for money spent on
      CD&L contracts because the contracts contained ill-defined
      requirements or were insufficiently monitored.

    u	 Two cases valued at $201,764 where DOI could not substantiate
       the receipt of timely and quality deliverables from CD&L.

         DOI suffered an increased vulnerability to waste because most
    CD&L contracts were time-and-materials contracts in which contrac-
    tors received funds based on level of effort rather than on completion
    or progress toward completion of defined contract deliverables. Time-
    and-materials contracts are the least desirable contracting type because


8
they provide no positive profit incentive to the contractor to control costs
or promote labor efficiency. DOI did not sufficiently describe the scope
of work for these contracts or provide adequate monitoring of contrac-
tor performance. In fact, contracting officials told us they felt pressured
by senior managers to continue to award work to CD&L and to approve
invoices without review or validation.

     In addition to the issues associated with time-and-materials contracts,
we also found inappropriate sole-source awards to CD&L. For example,
additional work was improperly sole-sourced to CD&L by modifying
an existing contract. The contract was modified 57 times, increasing
its value from $150,000 to approximately $6.6 million (a 4,300-percent
increase) and extending the period of performance by more than 5 years.


Hurricane Rebuilding Effort Reviewed
    The hurricanes of 2005 greatly impacted DOI, which received ap-
proximately $283 million in supplemental funding to address hurricane
damage. Our audit of these funds focused primarily on the major repair
and rebuilding efforts by NPS and FWS.

    We found that NPS had made little progress in its rebuilding efforts
by the end of Fiscal Year 2007. NPS had only obligated or spent 24 per-
cent of its $74 million of supplemental funding. We found many projects
to be incomplete or not even started. Lack of prioritization and coordina-
tion could cause NPS to run out of funds before all hurricane damage can
be repaired.

    FWS made significantly more progress in its rebuilding effort than
NPS did. At the end of Fiscal Year 2007, FWS had spent $145 million
(90 percent) of its $162 million in supplemental funding. Our site visits
showed extensive work in progress to address hurricane damage. How-
ever, we found FWS lacked adequate documentation to support its deci-
sions to rebuild and expand certain facilities. We also found that FWS
had not required the collection of hazard insurance proceeds totaling
$153,000 that were available on a concessioner-operated facility dam-
aged by a hurricane.

    Our audit did not disclose any instances where NPS or FWS inappro-
priately spent hurricane funds on assets not damaged in the 2005 hurri-
cane season.


FISMA Evaluation Completed for DOI
    The Federal Information Security Management Act (FISMA) re-
quires agencies to complete an annual independent evaluation of their



                                                                               9
     information security programs and practices, and report the results to
     the Office of Management and Budget. FISMA states that the inde-
     pendent evaluation is to be performed by the agency Inspector General
     (IG) or an independent external auditor as determined by the IG. Our
     Fiscal Year 2008 FISMA evaluation showed that DOI continued to be
     noncompliant with several key elements of FISMA legislation. While
     documentation of policy and process related to information security
     improved, implementation lagged. The misalignment of authority and
     non-compliant organizational hierarchy impaired the overall efficiency
     and effectiveness of DOI’s information security program.


     DOI Progress Implementing IT
     Recommendations Evaluated
          OIG conducted an evaluation to determine DOI progress in imple-
     menting IT security corrective actions recommended during Fiscal
     Year 2007. At that time, our office issued reports containing a total
     of 37 recommendations. DOI reported that 15 recommendations had
     been resolved and 22 remained open. Our subsequent testing resulted
     in disagreement regarding one of the 15 recommendations reported to
     be resolved and closed. In addition, our evaluation determined that a
     report issued by our office, which had contained 8 recommendations,
     had been lost by DOI. This resulted in no progress toward implemen-
     tation of the recommendations contained in that report. Overall, we
     concluded that DOI had made progress implementing recommenda-
     tions pertaining to the issuance of guidance. However, little substan-
     tive progress had been made implementing that guidance.


     Six Sentenced in Multimillion Dollar
     Contract Fraud and Bribery Scheme
         Six individuals were sentenced for their roles in a conspiracy to
     commit bribery and fraud in the manipulation of multiple government
     contracts. Previously, a federal grand jury in U.S. District Court,
     Western District of Texas, indicted these individuals in connection
     with a multimillion dollar bribery scheme centered on fixing U.S. gov-
     ernment contracts for the U.S. Army Medical Department located at
     Fort Sam Houston.

     u	 Ignacio Ruelas Torres, an infrastructure coordinator and project
        officer with the U.S. Medical Command (MEDCOM) at Fort Sam
        Houston, was sentenced to 7 years in prison and ordered to pay
        $498,200 in restitution.




10
u	 William John “Bill” Strout, Sr., a civilian contracting officer at the U.S.
   Army Medical Information Technology Center, was sentenced to 7 years in
   prison and ordered to pay $498,200 in restitution.

u	 Johnnie Flores, owner of Sphinx Consultant and Associates, a Small Busi-
   ness Administration (SBA) certified 8(a) firm in San Antonio, was sentenced
   to 5 years and 2 months in prison and ordered to pay $498,200 in restitution.

u	 Francisco Quinata Cruz, a San Antonio contractor consultant, was sentenced
   to 7 years in prison and ordered to pay $498,200 in restitution.

u	 William John “Will” Strout, Jr., the son of William John “Bill” Strout, Sr., a
   former civilian contracting officer also at the U.S. Army Medical Informa-
   tion Technology Center, was sentenced to 5-1/2 years in prison and ordered
   to pay $498,200 in restitution.

u	 Andrew Delancey Waring, II, a contract government employee with the U.S.
   Army Medical Information Technology Center at Fort Sam Houston, was
   sentenced to 5 years in prison and ordered to pay $265,560 in restitution.

    The defendants conspired to ensure that Flores’ company ultimately re-
ceived multiple government contracts. During the period of the scheme, the
defendants corrupted more than $18 million in U.S. contracts. One such con-
tract was awarded by DOI GovWorks agency to an Oklahoma tribally owned
business, Muscogee Nation Business Enterprise. According to the indictment,
the conspirators also attempted to fix other contracts administered by GovWorks
by sharing confidential bid information.

    This case was investigated by the DOI OIG, the Federal Bureau of Inves-
tigation (FBI), the Internal Revenue Service, the Army Criminal Investigation
Command, the General Services Administration (GSA) OIG, the Defense
Criminal Investigative Service, the SBA-OIG and the U.S. Department
of Justice (DOJ).




                                                                                    11
Bureau of Indian Affairs
Implementation of Motor Vehicle Operation
Policy Inspected to Determine Progress
     Two couples vacationing from Nebraska were killed in Albuquerque, New
Mexico, on January 25, 2002, by a Bureau of Indian Affairs (BIA) employee.
The deaths occurred because the employee drove a government truck the
wrong way on Interstate 40 after consuming a 12-pack of beer. In the ensu-
ing lawsuit, evidence showed that numerous employees and supervisors in the
BIA Navajo Region had drunk driving citations and convictions. Following
the lawsuit, BIA implemented the Motor Vehicle Operation Policy to establish
clear responsibilities for employees, supervisors, and managers to promote the
safe and prudent operation of vehicles while performing official duties.

   We conducted our inspection to ensure BIA had implemented the Motor
Vehicle Operation Policy. We found:

u Regional safety offices did not implement the policy in a manner that
  allowed for timely, effective monitoring of driver histories and training.

u Untimely and ineffective implementation of the policy has resulted in
  inconsistent safety performance and has allowed employees to continue
  driving when their driving history should have precluded the continuance
  of driving privileges.

    We also found that employee-reported driving history was not typically
validated against information available on the National Highway Traffic Safety
Administration’s National Driver Registry. This registry, which reports license
revocations, suspensions, or serious traffic violations reported by any state,
was used by one safety officer to validate employee reported driving histories.
We believe that this is a “best practice” that other offices should emulate.


Advisory Report Completed on
Motor Vehicle Operation Policy
and Tribal Contractors
    BIA has no assurance that tribal police officers, school bus drivers, and
other individuals with whom it contracts or with whom the Bureau of Indian
Education (BIE) contracts are safe drivers. Under current laws, there is no
way to compel tribal government operations, under contract with BIA and BIE,
to establish vehicle usage policies or certification programs, or even to require
them to comply with policy.




                                                                                                  13
                                                                                    Back to Toc
          Despite DOI’s inability to compel tribal governments to establish or
     follow vehicle usage policies, DOI is financially responsible for claims
     arising from driving accidents caused by tribal government employees
     working under these arrangements, according to the Federal Tort Claims
     Act.

          To address this situation, BIA can persuade tribal recipients of its
     funds to take certain safety measures by negotiating funding agreements
     that include these requirements. Alternatively, BIA can terminate con-
     tracts or grants based on endangerment to the health, safety or welfare of
     the public and tribal school children. Additionally, BIA should work with
     Congress to amend existing laws governing agreements with tribal govern-
     ments to mandate driver certification programs.


     Contractor Convicted of Theft and Bribery
         On May 7, 2008, former Leech Lake Tribe Chairman Peter White was
     convicted in Minnesota Federal Court of two counts of theft and bribery.
     The conviction follows an investigation into casino development and con-
     tracting corruption involving the Leech Lake Band of Ojibwe in 2003 and
     2004. Business owner Craig Potts and former Leech Lake Tribe Chair-
     man Peter White were indicted on February 14, 2008, on multiple charges
     stemming from the investigation. These included theft and bribery, wire
     fraud, and conspiracy to defraud the United States.

          The indictment stated that during 2003 and 2004, Potts owned a busi-
     ness named Cash Systems, Inc., that provided check-cashing and other
     gaming services to the Leech Lake tribe. During that time, Potts alleg-
     edly negotiated with the tribe to participate in new casino development on
     lakefront property near Walker, Minnesota. Potts then wired money to the
     tribe’s gaming director. Another associate, Michael Johnson, pled guilty to
     wire fraud in November 2007. White awaits sentencing.




14
Saguaro cacti, symbols of endurance in the face
of difficulties, are often associated with life in the
West. A saguaro is considered mature when it
reaches 125 years of age.




                                                         15
Bureau of Indian Education
Controls to Prevent Violence
Evaluated at Education Facilities
     During the 2005 to 2006 school year, 78 percent of public schools nation-
wide experienced one or more violent crimes that included rape, sexual battery,
and physical attacks. In a 2000 report focusing on BIE schools, 37 percent of
students reported carrying a gun to school during the previous month. These
statistics indicated that BIE might be dangerously unprepared to prevent vio-
lence and ensure the safety of students and staff at education facilities. To de-
termine whether or not this was still true, we evaluated controls at BIE-managed
facilities, only to find that these education facilities remained unprotected and
underserved, and that BIE still was unprepared to prevent violence and ensure
staff and student safety.

    We visited 9 BIE-operated education facilities and compared safety mea-
sures in place against 18 critical mainstream measures. We found that:

u	 Critical safety measures were absent at all BIE facilities we visited. At
   more than half of these education facilities, we walked around campuses
   unchallenged by staff and/or entered classroom buildings through unsecured
   exterior doors. While several facilities had security cameras, these were
   unmonitored. Additionally, several facilities did not have central alarm
   systems or intercoms to warn students and staff of emergencies.

u	 None of the education facilities visited had adequate emergency prepared-
   ness plans to deal with violent incidents, such as bomb threats, shootings,
   fights, and hostage situations. Plans did not adequately address emergency
   and/or all-clear procedures, evacuation meeting locations, staff responsibili-
   ties or validation that all students and staff were safe. We requested that
   facilities run lock-down and evacuation drills during our visits. Several fa-
   cilities could not run the drills because they had no safe means to lock-down
   and/or evacuate the facility. Other facilities would not run them because
   they believed the drills could cause too much chaos or frighten the students.
   During those drills that were conducted, responsible personnel could not
   always operate available alarm systems, all students and staff were not
   accounted for, doors were not locked, and safe meeting locations were not
   identified.

    Responsible BIE officials acknowledged the seriousness of school safety.
One official stated it was a matter of “when and where” – not “if” – a violent act
would happen. Another official acknowledged that some facilities give safety
only minimal attention.




                                                                                       17
                                                                         Back to Toc
     E-Rate Program Contractor
     Companies Convicted of Fraud
         Two contract companies, Global Network Technologies and Computer
     Training and Associates, were convicted of fraud on September 8, 2008, in
     North Dakota Federal Court. Each was sentenced to provide restitution in the
     amount of $241,000. Both companies, along with their respective representa-
     tives, Tyrone Pipkin and Gloria Harper, had been indicted in October 2007 on
     conspiracy and fraud charges. These charges stemmed from an investigation
     into the theft and misuse of grant funds received from the federally funded
     E-Rate program. This program seeks to ensure affordable access to advanced
     telecommunications for schools and libraries. Prosecution of Pipkin and Harper
     is pending.

          Based on a concurrent investigation of embezzlement allegations at the
     Twin Buttes School, DOI-OIG initiated an investigation of the E-Rate program.
     Pipkin, Harper and their respective companies conspired to bill the government
     for services and equipment they never delivered to Twin Buttes Elementary
     School. They also conspired to overcharge the government for the services and
     equipment they did provide. Pipkin and Harper allegedly falsified documents
     in order to receive government reimbursement, subsequently submitting these
     documents to the Federal Communications Commission.


     Audit Completed on Background Investigations
         Our audit found that appropriate background checks were not always per-
     formed on employees and other individuals who have regular contact with or
     control over children at Indian education facilities. At BIE-operated facilities,
     for example, we estimate:

     u	 FBI fingerprint checks were not conducted for 6 percent of BIE employees
        hired since January 1, 2004.

     u	 Character background checks were not conducted for 5 percent of
        employees hired since January 1, 2004.

     u	 Required background reinvestigations were not conducted for 60 percent of
        BIE employees with more than 5 years on the job.

         The situation at non-BIE operated schools we visited was even worse.
     These schools did not conduct FBI fingerprint checks for 43 percent of the indi-
     viduals in our sample. Also, they did not conduct character background checks
     for 77 percent of these individuals.




18
    We found that individuals were often allowed access to children prior to
completion of the required FBI fingerprint check or before background inves-
tigations were completed. Many of these individuals were later found to have
criminal records. For example:

u	 At one South Dakota school, FBI fingerprint reports on seven employees
   revealed criminal records that included assault and battery, domestic vio-
   lence, domestic assault, arson, furnishing liquor to a minor, distribution of
   marijuana, resisting arrest, and driving under the influence. The remain-
   ing 13 employees in our sample either had no security file or were missing
   background documentation or FBI fingerprint reports.

u	 An education technician at a BIE-operated facility hired in November 2006
   was accused of sexually abusing a student in January 2007. According to
   the accusation, the abuse occurred when the employee was driving the stu-
   dent, unsupervised, to sports practice. The technician should not have been
   alone with the student when the alleged abuse occurred because the BIE
   Security Office had not completed his background check.

u	 A teacher hired in August 2006 at a BIE-operated facility was accused of
   verbally and physically abusing her students from the time she was hired.
   No other information on the accusations could be found in her file. How-
   ever, the BIE Security Office still had not adjudicated the individual’s back-
   ground as of our review in October 2007.




                                                                                    19
Bureau of Land Management
Action Needed to Stop Inappropriate Use of
Cooperative Agreements
    The Helium Privatization Act of 1996 (P.L. 104-273) required the Bureau
of Mines (now the Bureau of Land Management) to divest itself of all helium
sale operations except the helium storage facility at the Bush Dome Reservoir in
northern Texas. The Act allows the Secretary of the Interior to store, transport,
and withdraw crude helium, and to maintain and operate crude helium storage
facilities. It also requires that all monies received under the Act be credited to
the Helium Production Fund, which carries out the provisions of the Act.

     We found that BLM improperly used two 15-year cooperative agreements
to establish a relationship with a contractor who represents several large helium
refiners on the BLM helium pipeline. This improper use of cooperative agree-
ments exposed the government to potential fraud and mismanagement, as well
as large monetary losses from overcharging, potential double billing, costly
short-term financing, and unjustified allocation of equipment costs.

     As soon as these abuses were identified, we suspended the review and
provided BLM with five recommendations. These recommendations, when
implemented, will require BLM to stop any effort to renew the two cooperative
agreements and to use appropriate procurement guidelines to select the proper
contractual legal document. In addition, BLM must evaluate whether all paid
costs are allowable, whether the contractor’s payment billing process double-
bills costs, and whether the government has fully paid for all equipment costs.




                                                                                       21
                                                                         Back to Toc
Bureau of Reclamation
Progress Is Made On Recommendations
     OIG evaluated the Bureau of Reclamation (BOR) to determine its progress
implementing IT security corrective actions recommended during Fiscal Year
2007. At that time, we issued one report to BOR that contained 13 recommen-
dations. BOR later reported that seven recommendations had been resolved and
six remained open. Our testing verified BOR’s update. BOR has made progress
implementing recommendations made by our office and has reported accurately
on their improvements.




                                                                                   23
                                                                     Back to Toc
     Minerals Management Service




24
Weak Business Practices
Uncovered in RIK Oil Sales
    As a result of an OIG investigation into alleged misconduct involving vari-
ous Minerals Management Service (MMS) personnel, we evaluated the Royalty-
In-Kind (RIK) Program to determine whether controls ensured the fair and
effective management of oil sales. Our evaluation concluded that while MMS
has improved its controls over the oil sales process, more progress is needed
to ensure an effective and fair RIK Program. Most importantly, MMS should
establish governing criteria to guide the RIK oil sales process.

     We found weak business practices, such as undocumented and inconsistent
procedures, uncontrolled access to critical bid data, and incomplete sales files.
These weak business practices resulted in MMS improperly allowing companies
to revise their bids instead of awarding contracts to the highest bidder. We
also found:

u	The RIK program operated its multibillion dollar oil sales program with
  little regard for legal advice. RIK had not sought legal counsel on critical
  and fundamental contract documents and, in one case, disregarded legal
  advice intended to protect the government’s interests.

u	Inadequate personnel planning could put the entire oil sales process at risk.
  The program has been operated without sufficient staff, making sudden or
  unanticipated absences of key employees capable of disrupting operations.

u	MMS should consider alternative methods for selling the royalty oil, such
  as a simultaneous multiple round auction process, which would strengthen
  controls and possibly increase overall revenue collections.

    MMS generally concurred with our findings and recommendations, but
expressed some reluctance to explore alternative sales methods.


RIK Director Retires During Investigation
     OIG initiated this investigation in late 2006 based on allegations from a
confidential source that Gregory W. Smith, the program director of the MMS
Royalty in Kind Program (RIK), Lakewood, Colorado, had demonstrated
misconduct in the execution of his duties. The confidential source alleged that
Smith had engaged in outside employment that conflicted with his RIK position,
that he accepted gifts from the oil and gas industry, and that he engaged in sex
and drug use with subordinates.




                                                                                       25
                                                                         Back to Toc
         Our investigation disclosed that between April 2002 and June 2003,
     Geomatrix Consultants, Inc (Geomatrix), an environmental and engineering
     consulting firm, paid Smith more than $30,000 for marketing Geomatrix to
     various oil and gas companies. However, their business relationship with RIK
     should have labeled these companies prohibited sources.

         We also confirmed that Smith received almost $1,000 in gifts from the oil
     and gas industry and that he engaged in sex with two subordinates and used
     drugs with at least one subordinate. When interviewed, Smith minimized
     the drug use and sexual activity. In addition, we learned that he suggested to
     other RIK employees that they should lie to OIG investigators.

         Smith retired from MMS during the course of this investigation. We
     provided our results to DOJ in March 2008 for prosecutorial consideration. In
     May 2008, DOJ advised us that it declined to prosecute Smith.


     MMS Oil Marketing Group
     Made Ethical Missteps
          Allegations of improprieties within the MMS RIK program led us to open
     this investigation in July 2006. Specifically, we were told that RIK marketers
     had developed inappropriate relationships with oil company representatives
     doing business with DOI. We also learned that these inappropriate relation-
     ships included RIK employees frequently attending oil and gas industry social
     functions and accepting gifts from company representatives.

         Our investigation confirmed that between January 1, 2002, and July 2006,
     19 RIK marketers and other RIK employees – approximately one-third of the
     entire RIK staff – socialized with and received a wide array of gifts from oil
     and gas companies with whom the employees were conducting official busi-
     ness. With respect to eight specific RIK employees, these gifts exceeded the
     allowable limits.

          We also discovered that two of the RIK employees who accepted gifts
     also held unauthorized outside employment. Both of these employees failed
     to seek MMS approval for their outside work and to report the income from
     this work on their financial disclosure forms. In addition, we learned that one
     MMS employee not affiliated with the RIK Program had received approval
     for outside work but failed to report the extra income.

          Finally, our investigation revealed an organizational culture failing in its
     acceptance of government ethical standards, one that was replete with inap-
     propriate personal behaviors and devoid of the necessary internal controls to
     prevent future unethical or unlawful behavior. Our report has been forwarded
     to the Assistant Secretary for Land and Minerals Management for whatever
     adverse action he deems appropriate for these DOI employees.


26
Federal Business Solutions Investigated
    In June 2005, a person requesting anonymity telephoned the DOI-OIG to
report that former MMS Senior Executive Service (SES) employees had been
rehired by MMS’ Minerals Revenue Management (MRM) division for high six-
figure salaries.

     Based upon our investigation, we determined that current MRM Associate
Director Lucy Querques Denett conspired with Jimmy Mayberry, her former
special assistant, to create a competitive contract for Mayberry after his MMS
retirement in January 2003. Moreover, we determined that Mayberry drafted the
statement of work for the contract while still employed by MMS, thus impacting
his own future personal financial interest while still an employee of the Executive
Branch of the federal government.

     Our investigation also implicated former MMS Deputy Associate Director
Milton Dial, who participated personally and substantially in the contract award-
ed to Mayberry starting in June 2003 by serving as the contracting officer’s tech-
nical representative for 1.5 years until he retired in September 2004. Six months
later, in March 2005, Dial began working for Mayberry, knowingly participating
in communications and representations with MMS on behalf of Mayberry’s com-
pany, Federal Business Solutions (FBS).

     Ultimately, the contract could not have been created for Mayberry, nor could
its funding have been increased to allow Dial’s employment had it not been for
the direct involvement of Denett. Denett personally orchestrated the creation of
the contract with Mayberry, served on the Technical Proposal Evaluation Com-
mittee that rated FBS as “excellent,” and personally sought the contract modifica-
tion for increased funding that allowed Dial to start working for FBS in 2005.

    Mayberry pled guilty to a felony based on his conduct in relation to the
creation of the contract, and Dial pled guilty to a felony based on his employment
under the contract. DOJ declined to prosecute Denett for her conduct.


Former MMS Chief of Information Systems
Charged With Submitting False Vouchers and
With Theft of Government Funds
     Suzan Bacigalupi, a former chief of information systems, was charged on
August 27, 2008, in a 4-count indictment by a Federal Grand Jury in the Eastern
District of Louisiana, of making false statements and theft of government prop-
erty. The indictment alleged that Bacigalupi knowingly submitted 2 government
travel vouchers with fraudulent receipts, claiming she paid $2,960 for lodging
shortly after Hurricane Katrina.



                                                                                      27
          Our investigation determined that Bacigalupi created two false lodging
     receipts and claimed the incurred charges for accommodations while on leave
     from September 12 through October 14, 2005. This investigation also deter-
     mined that Bacigalupi actually resided at the home of a personal friend during
     that time and that she voluntarily paid her friend $1,000 for the accommoda-
     tions. Bacigalupi kept the remaining $1,960 for herself.

         A summons has been issued that requires Bacigalupi to appear before a U.S.
     Magistrate Judge and answer to the charges. This indictment is consistent with
     the zero tolerance position that DOJ has adopted in Hurricane Katrina cases.


     Pacific Offshore Operators, Inc., Pleads Guilty
          Concluding a multi-year investigtion by OIG, working closely with MMS,
     Pacific Offshore Operators, Inc (Pacific), pled guilty in open court on May 19,
     2008, to providing a false statement to MMS regarding gas lift line (GLL) usage
     in its offshore oil platform operation.

          The GLL runs from an onshore processing plant to two oil rigging platforms
     located off the coast of Santa Barbara, California. In 1999, an independent test
     of the GLL discovered three areas where the walls had degraded 80 percent or
     more. On February 10, 2000, MMS told a Pacific supervisor that, based on test
     results, the GLL was unfit for service. Pacific learned that continued use would
     require the company to repair the line according to an approved MMS plan.

         In October 2002, a former Pacific employee informed MMS that the GLL
     continued to be used to store gas during “upsets.” Subsequent MMS inspections
     and efforts during this investigation determined that the GLL continued to be
     used even though a Pacific supervisor claimed that company policy would not
     permit them to introduce gas into the GLL for any reason. Since the GLL had
     been deemed out of service, he saw no operational need to store gas in the GLL
     and, to the best of his knowledge, no such storage had occurred.

          Pacific admitted to using the out-of-service GLL to store and transport
     natural gas, a knowing and willful violation of regulations and orders issued by
     the MMS and a violation of Title 43. On September 23, 2008, Pacific Opera-
     tors Offshore, LLC, was sentenced to pay a $450,000 criminal fine and serve a
     5-year probationary period.




28
Water remains one of the world’s most critical
resources, reinforcing the need for careful
stewardship, whether the focus is on offshore
drilling precautions or water rights in the West.




                                                    29
National Park Service
NPS Scientist Misrepresents Research
    In April 2007, Kevin and Nancy Lunny requested an investigation
into the actions of Point Reyes National Seashore Superintendent Donald
Neubacher. Specifically, the Lunny family, which owns and operates the
Drakes Bay Oyster Company (DBOC) and the G Ranch, located within
Point Reyes, alleged that Neubacher had undermined and interfered with
their family’s businesses and had slandered their family’s name. Further,
they believed that Neubacher and local environmentalists planned to shut
down the family’s oyster farm by crippling the family financially. We
opened an investigation shortly after receiving these allegations.

    During the OIG’s investigation, we interviewed nearly 80 people
from California, Colorado, Maine, and the Washington, D.C., area. We
also conducted a voluntary search of the Point Reyes senior science
advisor’s office, retrieved and analyzed computer files from the super-
intendant’s and the senior science advisor’s government computers, and
reviewed more than 1,100 documents and e-mail messages.

    Our investigation determined that Point Reyes published a report on
Drakes Estero, where the Lunny family farms oysters. The report con-
tained several inaccuracies regarding the source of sedimentation in the
estuary. After receiving complaints from Corey Goodman, a neuro-
biologist, NPS removed the report from its Web site on July 23, 2007.
Two days later, it posted an “acknowledgement of errors” in its place.

     Our investigation determined that in this report as well as in a news-
paper article, Point Reyes Senior Science Advisor Sarah Allen misrepre-
sented sedimentation research completed in the 1980s by U.S. Geological
Survey scientist Roberto Anima. In addition, we determined that she
failed to provide a copy of a germane e-mail message between Anima
and herself in response to a FOIA request that specifically sought such
correspondence and she stated in a public forum that NPS had more than
25 years of seal data from Drakes Estero when in fact this statement
proved to be inaccurate.

    While Allen denied any intentional misrepresentation of Anima’s
work, our investigation revealed that she had information that differed
from her characterization of Anima’s findings in the Sheltered Wilderness
Report and other public releases. She also did nothing to correct the in-
formation before its release to the public. The results of our investigation
were forwarded to NPS for the consideration of administrative action.




                                                                                     31
                                                                       Back to Toc
Harpers Ferry Center History
Collection in Jeopardy
    When an NPS investigator questioned accountability at the Harpers Ferry
Center, we initiated an evaluation to determine whether the Center is adequately
safeguarding museum property held in its trust. Some of the more significant
collection items include Ansel Adams photographs, records and journals of Civil
War General Abner Doubleday, and the first NPS uniforms. During our evalua-
tion, we learned that:

u	Lax security and poor physical conditions at storage facilities are compro-
  mising museum artifacts at the Harpers Ferry Center.

u	Poor documentation hinders Center ability to detect damage, destruction, or
  loss of artifacts—such documentation includes accession records that lack
  detailed descriptions of accession content or fail to identify NPS ownership.

u	Collection usefulness for purposes of research and cultural education is
  adversely affected by poor facility conditions and documentation.

     We recommended that NPS stabilize the situation by moving collection
items to a more environmentally secure facility. They also should consider the
purpose of the history collection and who should have custody so as to preserve
and promote its use. In addition, we recommended developing and implement-
ing detailed plans to document and catalog collection items. If implemented,
these actions should help reduce the possibility of damage, loss, or theft of the
artifacts currently at risk.


Office XXXXX Terminated
    On July 25, 2008, the NPS Office of Business and Finance XXXXXXXXXXX
XXXXXXXX* was removed from government service for abusing his government
credit card. An audit of XXXXXX charge card usage between 2000 and 2007 left
investigators unable to account for 82 charges. Of these 82 charges, 32 were
determined to be fraudulent and in violation of NPS and DOI policy. They
included personal expenditures for fuel, as well as cash withdrawals with no
associated official business. XXXXX excessive misuse of his government charge
card also included partial and late payments, in addition to delinquency charges
and past-due billings.

*identity redacted due to a 2010 settlement agreement.
Ancient charcoal kilns in Death
Valley National Park once trans-
formed juniper and pine into coal.




                                     33
Office of Insular Affairs
Medical Center Management
Shirks Fiscal Responsibility
     In this joint audit of the Roy Lester Schneider Regional Medical Center
(Medical Center) in St. Thomas, Virgin Islands, the DOI-OIG and the Virgin
Islands OIG found that the District Board (Board) shirked its fiscal responsi-
bility in many ways. Most importantly, the Board colluded with senior Medi-
cal Center executives to divert Medical Center funds for personal gain, while
fostering an environment of secrecy within an entity of the Government of the
Virgin Islands (GVI).

    Specifically, the Board awarded lucrative compensation packages to
senior executives and allowed payments to the chief executive officer that
exceeded employee contract amounts. The Board then kept the true amounts
paid to these executives from the GVI executive and legislative branches,
which based their oversight and scrutiny of Medical Center funding on faulty
information.

     Top level Medical Center executives also demonstrated fiscal irresponsi-
bility when they used official credit cards for personal gain, used funds due
to insurers, allowed patients and insurers to be overbilled for air ambulance
services, and allowed contractual discounts to be inappropriately applied. In
addition, they failed to exercise good judgment in approving credit card pur-
chases and reimbursable expenses, determining the amount of refunds actu-
ally owed to patients and insurers, and maintaining proper controls over the
processing of refunds.

     The report includes six recommendations essential to continuing health
care delivery, efficient use of funding, and restoration of trust in this public
institution. The Governor of the Virgin Islands concurred with the recom-
mendations and has initiated the steps necessary to correct the deficiencies
noted in this report. These steps include removing five Board members and
terminating the Medical Center’s chief executive and chief financial officers.
An ongoing criminal investigation stemming from the report has resulted in
the arrest of two former executive officers, the former chief financial officer,
and the former Board chairperson.




                                                                                        35
                                                                          Back to Toc
     Insular Areas Hospital Report
     Leads To Increased Awareness
          In December 2007, at the annual meeting between the DOI-OIG and
     the Public Auditors for insular area islands, the group decided to undertake
     a joint evaluation of health care and its delivery in the U.S. territories and
     compact nations. Interviews of health care officials and providers in seven
     insular locations began in June 2008, as the OIG and public auditors worked
     together to capture “snapshots” of the conditions affecting health care deliv-
     ery in these unique geographic locations.

         Conditions proved to be shocking as we discovered that the insular
     areas are unable to provide comprehensive health care services to their citi-
     zens. The islands’ extremely remote locations and less competitive physi-
     cian salaries stand as significant obstacles to physician recruitment and to
     maintaining adequate staffing levels. Sizeable nursing vacancies stretch the
     workdays and eliminate vacation time for nursing staff. Specialty physi-
     cians, who sometimes serve as the only one of their kind for an island’s
     entire population, are on call 24 hours a day, 7 days a week, year round.

         This significant shortage of nurses, physicians, and specialists creates
     an environment where critically ill patients have to board planes and cross
     thousands of miles of ocean to obtain medical services.

          Some facilities continuously struggle to cover the monumental costs of
     air transport for off-island medical services; others are forced to leave this
     expense to their patients.

         It is not only staffing levels that fall short for insular areas’ hospitals.
     Medical supplies, such as IV pumps, incubator lights, bedside commodes
     and even gloves, are available in such limited quantities that nurses and
     physicians must sometimes purchase them with their own money. Medical
     equipment is antiquated and unreliable.

          Understanding that no simple solution could lend itself to correct the
     startling trends we observed, the September 2008 report, Insular Area
     Health Care: ‘At the Crossroads of a Total Breakdown,’ recommended five
     areas of focus: the shortage of fundamental supplies and equipment, inad-
     equate management of patient records, staffing shortages, inadequate and
     damaged infrastructure, and inappropriate disposal of biohazardous waste.

         As a basis for meaningful discussion and development of long-term
     solutions, the report was part of the discussion at a health care summit on




36
September 28, 2008, hosted by Secretary of the Interior Dirk Kempthorne. The
Secretary was joined by senior federal officials including the Secretary for Vet-
erans Affairs James B. Peake, M.D., Under Secretary of Defense for Personnel
and Readiness David S. Chu, and Health and Human Services Assistant Secre-
tary for Health Joxel Garcia, M.D., in a Joint Statement of Resolve, confirming
their commitment to improve health care services in the insular areas.

     From this summit a task force known as the Interagency Coordinated As-
sets for Insular Health Response was also formed. This task force is set to be a
sub-working group of the Interagency Group on Insular Areas, established by
President Bush in May 2003.




                                                                   Colorful beauty of the Insular
                                                                   Areas reflected in this Bird of
                                                                   Paradise does not diminish the
                                                                   challenge living in these areas
                                                                   represents to island peoples.




                                                                                                     37
U.S. Fish and Wildlife Service
Employee Pays Restitution After Resigning
     On March 8, 2008, Deborah A. Pasha, an administrative support assistant
at the Green Lake National Fish Hatchery in Ellsworth, Maine, resigned her
position following allegations of government credit card misuse. Pasha is in the
process of repaying approximately $6,800 to the government. An investigation
of Pasha’s actions supported allegations that she used the government charge
card assigned to an agency vehicle leased from GSA to purchase fuel for her
own car. She also misused her government charge card and purchase authority
to buy personal items and services.




                                                                                     39
                                                                       Back to Toc
     U.S. Geological Survey




40
Facility Manager Resigns
     On August 6, 2008, Steven T. Castille, the facility manager of the National
Wetlands Research Center in Lafayette, Louisiana, left government service fol-
lowing allegations of cyberstalking. The Lafayette Parish Sheriff’s Office con-
tacted investigators regarding Castille’s alleged stalking of a female resident.
A forensic examination of computer equipment seized during the execution of
search warrants supported the allegations. The termination process began after
the U.S. Attorney’s Office accepted the criminal case. Castille resigned in lieu
of termination. Prosecution is pending.


USGS Evaluated On Progress
    OIG evaluated USGS progress made toward implementing IT security cor-
rective actions recommended during Fiscal Year 2007. At that time, we issued
a report containing seven recommendations. USGS reported one recommen-
dation had been resolved and six remained open. Our testing verified that the
vulnerabilities identified by our office had been mitigated. However, similar
vulnerabilities existed elsewhere. Testing determined that USGS’ vulnerabil-
ity management efforts may not be sufficient to detect all vulnerabilities. In
addition, we were unable to verify USGS’ progress implementing intrusion
detection capabilities since our testing activities were monitored by USGS,
which misrepresented their ability to detect our scanning. We concluded that
USGS had made little progress implementing OIG recommendations, and had
attempted to deceive us regarding its implementation of one recommendation.


Robert Thom Sentenced
    Robert Thom, a USGS Information Technology specialist in San Diego,
California, was arrested on August 23, 2007, for allegedly submitting false and
forged documents, claiming that he suffered from a malignant brain tumor. He
did this in order to apply for and receive 995 hours of annual leave from the
Federal Voluntary Leave Transfer Program. Misled by Thom’s false medical
documents, the USGS placed him on its national donation list from
December 14, 2006, through August 23, 2007, so that Thom could receive do-
nations of annual leave from all USGS employees. Thirty USGS employees,
including 10 outside of California, donated their annual leave, worth $40,550,
so that Thom could continue to receive his federal salary and benefits.

    Thom was indicted on September 6, 2007, by a Federal Grand Jury in the
U.S. District Court for the Eastern District of California on 10 counts of wire
fraud. Then, on December 6, 2007, he appeared in the U.S. District Court,
Eastern California, where he pled guilty. On May 9, 2008, he was sentenced
in connection with his guilty plea to 12 months of imprisonment, 36 months
of probation, and $35,329 in restitution. Also, in September 2007, Thom’s
employment with the USGS was terminated.

                                                                                         41
                                                                           Back to Toc
Appendices
                                                                                                                                     Appendix One




STATISTICAL HIGHLIGHTS
Investigative Activities
Cases Closed............................................................................................................................. 220
Cases Opened........................................................................................................................... 194
Hotline Complaints/Inquiries Received......................................................................................72

Criminal Prosecution Activities
Indictments/Informations............................................................................................................10
Convictions....................................................................................................................................11
Sentencings..................................................................................................................................14
     - Jail........................................................................................................................ 464 months
     - Fines........................................................................................................................$455,000
     - Criminal Restitutions.......................................................................................... $3,635,067
     - Probations .......................................................................................................... 492 months
     - Community Service.............................................................................................. 2500 hours
     - Special Assessments.................................................................................................. $3,950
Criminal Matters Referred for Prosecution.................................................................................32
Criminal Matters Declined This Period.......................................................................................47

Civil Investigative Activities
Civil Referrals.................................................................................................................................3
Civil Declinations............................................................................................................................7

Administrative Investigative Activities
Removals........................................................................................................................................2
Downgrades....................................................................................................................................1
Resignations/Retirements............................................................................................................8
Suspensions.................................................................................................................. 1 (10 days)
Reprimands/Counseling..............................................................................................................13
Reassignments/Transfers.............................................................................................................2
General Policy Actions.................................................................................................................19
Administrative Recoveries................................................................................................ $15,015
Bureau Non-Responsive*............................................................................................................14

* Bureau Non-Responsive is a category indicating failure by a bureau to respond to referral for administrative
action.
                                                                                                                                                    43
                                                                                                                     Back to Toc
     Appendix One




       STATISTICAL HIGHLIGHTS
       Audit and Evaluation Related Activities
        Reports Issued....................................................................................................................... 44

        	    Performance Audits, Financial Audits, Evaluations, and Verifications..........................29
        	    Contracts and Grant Audits..............................................................................................13
        	    Single Audit Quality Control Reviews.................................................................................2


        Audit and Evaluation Impacts
        Total Monetary Impacts........................................................................................$21,768,935
        	    Questioned Costs (includes unsupported costs)............................................$4,089,140
        	    Recommendations That Funds Be Put to Better Use.................................. $10,779,905
        	    Lost or Potential Additional Revenues................................................................$203,288
        	    Wasted Funds*................................................................................................ $6,696,602

        Audit and Evaluation Recommendations Made..................................................................147

        Audit and Evaluation Recommendations Resolved........................................................... 360




       * Wasted Funds is a category used to classify funds that were wasted and cannot be recovered.




44
Appendix One




           45
 Appendix Two




                Reports Issued During the
                Six-Month Reporting Period
                This listing includes all reports issued during the 6-month period that ended September
                30, 2008. It provides report number, title, issue date, and monetary amounts identified
                in each report (* Funds To Be Put To Better Use, ** Questioned Cost, *** Unsupported
                Cost, **** Lost or Potential Additional Revenues, and
                *****Wasted Funds).


                Audits, Evaluations, and Verifications
                Bureau of Indian Affairs
                Q-IN-BIA-0005-2007	             Bureau of Indian Education Background Investigations
                                                (04/25/2008)	

                NM-IS-BIA-0002-2008	            Inspection of the Implementation of the Motor
                                                Vehicle Operation Policy, Bureau of Indian Affairs
                                                (07/31/2008)

                NM-EV-BIE-0001-2008	            Evaluation of Controls to Prevent Violence at Bureau
                                                of Indian Education Operated Education Facilities
                                                (08/01/2008)

                NM-IS-BIA-0004-2008	            Advisory Report - Motor Vehicle Operation Policy and
                                                Tribal Contractors (08/25/2008)	

                Bureau of Land Management
                WR-VS-BLM-0001-2008	            Verification Review of Seven Recommendations Con-
                                                sidered Implemented From Our February 2004 Report
                                                Audit of Oil and Gas Permitting Process, Bureau of
                                                Land Management (05/30/2008)

                WR-IV-BLM-0003-2008	            Immediate Action Needed to Stop the Inappropriate
                                                Use of Cooperative Agreements in BLM’s Helium
                                                Program (08/19/2008)		

                Departmental Offices
                X-IN-OSS-0007-2008	             Management Letter Concerning Issues Identified
                                                During the Audit of the Departmental Offices
                                                Financial Statements for Fiscal Years 2007 and 2006
                                                (06/18/2008)	




46
                                                                            Appendix Two




W-EV-OSS-0006-2008	     Letter to Senator Baucus and Memorandum to
                        Secretary of the Interior on Recommendations
                        Stemming from Congressional Request Regarding
                        the Montana Fish and Wildlife Conservation Trust
           .            (08/07/2008)

Minerals Management Service
C-EV-MMS-0001-2008	     Minerals Management Service Royalty-In-Kind
                        Oil Sales Process (05/30/2008)	

Multi-Office Audits
C-VS-MOA-0003-2008	     Review to Verify the Implementation of the Six
                        Recommendations Contained in the Evaluation
                        Report Titled Department of the Interior Workers’
                        Compensation Program (E-IN-MOA-0008-2004)
                        (05/16/2008)	

W-EV-MOI-0003-2008	     Interior Misstated Achievement of Small Busi-
                        ness Goals by Including Fortune 500 Companies
                        (07/01/2008)

C-IN-MOA-0004-2007	     Abandoned Mine Lands in the Department of the
                        Interior (07/22/2008)		

Y-EV-MOA-0003-2008	     Absent Immediate Action the Department of
                        the Interior Faces Looming Leasing Crisis
                        (07/31/2008)	

C-IN-MOA-0005-2008	     Survey of the Department of the Interior’s
                        Recreational Fees (08/28/2008)		

C-IN-MOA-0006-2007	     DOI’s Hurricane Rebuilding Efforts (09/03/2008)
                        ****$153,000

X-ST-MOI-0018-2008	     Inspector General’s Statement Summarizing the
                        Major Management and Performance Challenges
                        Facing the Department of the Interior for Fiscal
                        Year 2008 (09/29/08)

National Park Service
C-VS-NPS-0004-2008	     Review to Verify Implementation of the Two
                        Recommendations Contained in the Evaluation
                        Report Titled Administration of the Chesapeake
                        Bay Gateways Network and Grant Program,
                        National Park Service (W-IN-NPS-0006-2005)
                        (04/30/2008)



                                                                                       47
 Appendix Two




                B-EV-NPS-0007-2008	         DC Water and Sewer Payment – 2nd Quarter 2008
                                            (06/02/2008)

                W-EV-NPS-0007-2008	         Close Out of the Evaluation of the National Park
                                            Service – Washington Contracting
                                            Office’s Contracting for Private Sector
                                            Temporaries (06/18/2008)

                Y-EV-NPS-0004-2008	         History Collection in Jeopardy at Harpers Ferry
                                            Center (07/25/2008)		

                B-EV-NPS-0012-2008	         DC Water and Sewer Payment - 3rd Quarter 2008
                                            (08/05/2008)

                C-VS-NPS-0002-2008	         Review to Verify the Implementation of the Six
                                            Recommendations Contained in the Audit Report
                                            Titled Modified Water Deliveries to Everglades Na-
                                            tional Park (C-IN-MOA-0006-2005) (08/15/2008)

                Office of Insular Affairs
                V-EV-VIS-0001-2008	         Verification of Watch Quota and Jewelry Quota
                                            Data for Calendar Year 2007 Submitted by Firms
                                            Located in the U.S. Virgin Islands (04/10/2008)

                W-VS-OIA-0008-2007	         Verification Review of Five Recommendations
                                            From our May 2005 Audit Report Grants for
                                            Waste Disposal Projects, Department of Public
                                            Works, Government of the Virgin Islands (V-IN-
                                            VIS-0072-2004) (07/02/2008)		

                HI-EV-OIA-0001-2008	        Insular Area Health Care At The Crossroads of a
                                            Total Breakdown (09/09/2008)

                V-IN-VIS-0001-2007	         Administrative Functions, Roy Lester Schneider
                                            Regional Medical Center, Government of the Virgin
                                            Islands (07/28/2008) *$9,893,400 **$3,639,900
                                            *****$1,706,500

                U.S. Fish and Wildlife Service
                Y-RR-FWS-0012-2007	         Program Assessment Rating Tool Progress Evalu-
                                            ation - U.S. Fish and Wildlife Service Migratory
                                            Bird Management and Conservation Program
                                            (04/14/2008)




48
                                                                             Appendix Two




Y-RR-FWS-0007-2007	      Program Assessment Rating Tool Progress
                         Evaluation - U.S. Fish and Wildlife Service
                         Endangered Species Program (06/03/2008)

B-EV-FWS-0014-2008	      Management Advisory – Clarification Needed
                         on Reporting Barter Transactions Conducted
                         Under U.S. Fish and Wildlife Service Wildlife
                         and Sport Fish Restoration Program Grants
                         (08/06/2008)


Contract and Grant Audits
National Park Service
K-CX-NPS-0001-2008	      Audit of the Great Basin Heritage Area Part-
                         nership Financial Management System Under
                         National Park Service Cooperation Agreement
                         H8420070043 (07/29/2008)	

K-CX-NPS-0002-2008	      Agreed Upon Procedures Between the Office
                         of Inspector General and National Park Service
                         for the Review of Seven Resorts, Inc., Under
                         National Park Service Concession Contract CC-
                         LAME003-74 (09/26/2008)

Office of the Special Trustee
Q-CX-MOA-0001-2007	      Management Advisory - Review of Office of the
                         Special Trustee for American Indians Requisition
                         76030070002 (06/27/2008)		

Q-CX-MOA-0005-2006	      Chavarria, Dunne, and Lamey LLC Con-
                         tract Deliverables (06/27/2008) **$136,100
                         *****$4,990,102

U.S. Fish and Wildlife Service
R-GR-FWS-0017-2007	      U.S. Fish and Wildlife Service Wildlife and
                         Sport Fish Restoration Program Grants Awarded
                         to the State of Louisiana, Department of Wildlife
                         and Fisheries, From July 1, 2004, Through
                         June 30, 2006 (04/29/2008)




                                                                                        49
     Appendix Two




                R-GR-FWS-0013-2007	   U.S. Fish and Wildlife Service Wildlife and Sport
                                      Fish Restoration Program Grants Awarded to the
                                      State of Vermont, Agency of Natural Resources,
                                      Fish and Wildlife Department, From July 1, 2004,
                                      Through June 30, 2006 (06/03/2008) ***$8,809

                R-GR-FWS-0002-2008	   U.S. Fish and Wildlife Service Wildlife and Sport
                                      Fish Restoration Program Grants Awarded to the
                                      State of Florida Fish and Wildlife Conservation
                                      Commission From July 1, 2005, Through June 30,
                                      2007 (06/05/2008)

                R-GR-FWS-0007-2007	   U.S. Fish and Wildlife Service Wildlife and
                                      Sport Fish Restoration Program Grants Awarded
                                      to the State of Alaska, Department of Fish and
                                      Game, From July 1, 2004, Through June 30, 2006
                                      (06/23/2008) **$61,677

                R-GR-FWS-0015-2007	   U.S. Fish and Wildlife Service Wildlife and Sport
                                      Fish Restoration Program Grants Awarded to the
                                      State of New York, Department of Environmen-
                                      tal Conservation, Division of Fish, Wildlife and
                                      Marine Resources, From April 1, 2005, Through
                                      March 31, 2007 (06/27/2008) *$20,537 **$32,506

                R-GR-FWS-0014-2007	   U.S. Fish and Wildlife Service Wildlife and Sport
                                      Fish Restoration Program Grants Awarded to the
                                      State of Tennessee, Wildlife Resources Agency,
                                      From July 1, 2004, Through June 30, 2006
                                      (07/02/2008) *$846,283 **$153,360

                R-GR-FWS-0018-2007	   U.S. Fish and Wildlife Service Wildlife and Sport
                                      Fish Restoration Program Grants Awarded to the
                                      State of Indiana, Department of Natural Resources,
                                      Division of Fish and Wildlife, From July 1, 2004,
                                      Through June 30, 2006 (07/29/2008) *$19,685
                                      **$52,154 ***$4,634 ****$50,288

                R-GR-FWS-0004-2008	   U.S. Fish and Wildlife Service Wildlife and Sport
                                      Fish Restoration Program Grants Awarded to the
                                      State of Montana, Department of Fish, Wildlife and
                                      Parks, From July 1, 2005, Through June 30, 2007
                                      (08/04/2008)




50
                                                                     Appendix Two




R-GR-FWS-0005-2008	   U.S. Fish and Wildlife Service Wildlife and
                      Sport Fish Restoration Program Grants Award-
                      ed to the State of Wyoming, Game and Fish
                      Department, From July 1, 2005, Through June
                      30, 2007 (09/26/2008)	


Single Audit Quality Control Reviews
B-QC-MOA-0008-2008	   Joseph Eve CPA Audit of Oglala Sioux
                      Tribe for the Year Ended December 31, 2004
                      (07/15/2008)	

B-QC-MOA-0011-2008	   Mikunda Cottrell Audit of Bristol Bay Native
                      Association for the Year Ended September 30,
                      2006 (07/15/2008)




                                                                                51
 Appendix Three




     Monetary Impact of Audit and Evaluation
     Activities During the Reporting Period

     Activity	 	 Questioned Costs*	 Funds To Be Put 	            Potential	     Wasted 	            Total
     			                             To Better Use	             Additional	     Funds
     				                                                        Revenue
     Insular
     Affairs	 	           $3,639,900	             $9,893,400	       0	        $1,706,500 	   $15,239,800

     Multi-
     Office		                   0	                      0	      $153,000	         0	           $153,000


     Office of
     Special Trustee
     for American
     Indians	              $136,100	                    0	          0	        $4,990,102	     $5,126,202

     U.S. Fish
     and Willife
     Service	              $313,140	               $886,505	    $50,288	          0	          $1,249,933


     Total	                $4,089,140	           $10,779,905	   $203,288	     $6,696,602	    $21,768,935




      *Unsupported costs are included in questioned costs.




52
                                                                        Appendix Four




Non-Federal Funding Included in
Monetary Impact of Audit and
Evaluation Activities During the
Reporting Period
V-IN-VIS-0001-2007	   Administrative Functions, Roy Lester Schneider
                      Regional Medical Center, Government of the
                      Virgin Islands, dated July 28, 2008. The report
                      identified $15,239,800 as monetary impact,
                      consisting of $3,639,900 questioned costs,
                      $9,893,400 funds to be put to better use, and
                      $1,706,500 wasted funds. All of the funds were
                      Insular funds.




                                                                                        53
 Appendix Five




     Monetary Resolution Activities
     Table I: Inspector General Reports With Questioned Costs*


     		                                             Number of Reports	   Questioned Costs	   Unsupported Costs


     A.	   For which no management
     	     decision had been made by the
     	     commencement of the reporting
     	     period.	                                         39	           $17,548,429	          $6,635,834

     B.	 Which were issued during the
     	 reporting period.	                                    6	              $449,240	             $13,443

     		       Total (A+B)	                                  45	           $17,997,669	          $6,649,277

     C.	 For which a management decision
     	 was made during the reporting
     	 period. 	                                             9	            $2,986,105	          $1,380,064

     		       (i) Dollar value of
     		       recommendations that
     		       were agreed to by
     		       management. 	                                  6	            $1,623,051	           $783,819

     		       (ii) Dollar value of
     		       recommendations that
     		       were not agreed to by
     		       management. 	                                  3	            $1,363,054	           $596,245

     D.	 For which no management
     	 decision had been made by the
     	 end of the reporting period. 	                       36	           $15,011,564	          $5,269,213

     E. 	 For which no management
     	 decision was made within
     	 6 months of issuance. 	                              31	           $14,624,001	          $5,255,770




     *Unsupported costs are included in questioned costs.




54
                                                                               Appendix Five




Monetary Resolution Activities
Table II: Inspector General Reports With
Recommendations That Funds Be Put To Better Use
		                                          Number of Reports	    Dollar Value


A.	   For which no management
	     decision had been made by the
	     commencement of the reporting
	     period.	                                     17	           $28,181,391

B.	 Which were issued during the
	 reporting period. 	                                3	            $886,505

		       Total (A+B)	                              20	           $29,067,896

C.	 For which a management decision
	 was made during the reporting period. 	            5	          $13,004,328

	 (i)	 Dollar value of recommendations
		 that were agreed to by management. 	              3	           $2,778,600

	 (ii)	 Dollar value of recommendations
		 that were not agreed to by management. 	          2	          $10,225,728

D.	 For which no management decision
	 had been made by the end of the
	 reporting period. 	                              15	           $16,063,568

E.	 For which no management decision
	 was made within 6 months of issuance. 	          12	           $15,177,063




                                                                                           55
 Appendix Five




     Monetary Resolution Activities
     Table III: Inspector General Reports
     With Lost or Potential Additional Revenues

     		                                          Number of Reports	    Dollar Value


     A.	   For which no management
     	     decision had been made by
     	     the commencement of the
     	     reporting period.	                             3	          $40,325,640

     B.	 Which were issued during the
     	 reporting period. 	                                2	            $203,288

     		       Total (A+B)	                                5	          $40,528,928

     C.	 For which a management decision
     	 was made during the reporting period. 	            0	                    0

     	 (i)	 Dollar value of recommendations
     		 that were agreed to by management. 	              0	                    0

     	 (ii)	 Dollar value of recommendations
     		 that were not agreed to by management. 	          0	                    0

     D.	 For which no management decision
     	 had been made by the end of the
     	 reporting period. 	                                3	          $40,528,928

     E.	 For which no management decision
     	 was made within 6 months of issuance. 	            3	          $40,325,640




56
                                                                                 Appendix Five




Monetary Resolution Activities
Table IV: Inspector General Reports
With Wasted Funds

		                                          Number of Reports	    Dollar Value


A.	   For which no management
	     decision had been made by
	     the commencement of the
	     reporting period.	                             2	          $28,856,706

B.	 Which were issued during the
	 reporting period. 	                                1	           $4,990,102

		       Total (A+B)	                                3	          $33,846,808

C.	 For which a management decision
	 was made during the reporting period. 	            1	           $4,990,102

	 (i)	 Dollar value of recommendations
		 that were agreed to by management. 	              1	                    0

	 (ii)	 Dollar value of recommendations
		 that were not agreed to by management. 	          0	           $4,990,102

D.	 For which no management decision
	 had been made by the end of the
	 reporting period. 	                                2	          $28,856,706

E.	 For which no management decision
	 was made within 6 months of issuance. 	            2	          $28,856,706




                                                                                             57
 Appendix Six




                Summary of Reports Over 6 Months
                Old Pending Management Decisions
                This listing includes a summary of audit and evaluation reports that were more than 6
                months old on September 30, 2008, and still pending a management decision. It
                provides report number, title, issue date, number of unresolved recommendations, and
                unresolved amount of monetary benefits identified in the report.


                Audits and Evaluations
                Bureau of Indian Affairs
                C-IN-BIA-0008-2007	             Flash Report - Bureau of Indian Affairs and Bureau of
                                                Indian Education: Schools in Need of Immediate
                                                Action (05/31/2007); 3 Recommendations

                X-IN-BIA-0008-2008	             Management Letter Concerning Issues Identified
                                                During the Audit of the Indian Affairs Financial
                                                Statements for Fiscal Years 2007 and 2006
                                                (02/21/2008); 1 Recommendation

                Multi-Office Audits
                X-IN-MOA-0018-2005	             FY2005 Department of the Interior Purchases Made on
                                                Behalf of the Department of Defense (01/09/2007);
                                                2 Recommendations

                W-IN-MOA-0086-2004	             Proper Use of Cooperative Agreements Could Improve
                                                Interior’s Initiatives for Collaborative Partnerships
                                                (01/31/2007); 3 Recommendations

                X-IN-MOA-0012-2007	             Independent Auditors’ Report on the Department of the
                                                Interior Financial Statements for Fiscal Years 2007 and
                                                2006 (11/13/2007); 1 Recommendation

                W-EV-MOA-0001-2007	             Sole Source Contracting: Culture of Expediency
                                                Curtails Competition in Department of the Interior
                                                Contracting (02/08/2008); 3 Recommendations

                C-IN-MOA-0011-2006	             Health and Safety Concerns at Department of the Inte-
                                                rior’s Facilities (03/26/2008); 6 Recommendations




58
                                                                               Appendix Six




National Park Service
X-IN-NPS-0017-2006	       Independent Auditors’ Report on the National
                          Park Service’s Financial Statements for Fiscal
                          Years 2006 and 2005 (02/08/2007);
                          4 Recommendations

X-IN-NPS-0019-2007	       Independent Auditors’ Report on the National
                          Park Service Financial Statements for Fiscal
                          Years 2007 and 2006 (12/21/2007);
                          1 Recommendation

Office of the Secretary
X-IN-OSS-0016-2006	       Independent Auditors’ Report on the
                          Departmental Offices’ Financial Statements for
                          Fiscal Years 2006 and 2005 (02/05/2007);
                          2 Recommendations

X-IN-OSS-0014-2007	       Independent Auditors’ Report on the Departmen-
                          tal Offices’ Financial Statements for Fiscal Years
                          2007 and 2006 (01/28/2008); 1 Recommendation

U.S. Fish and Wildlife Service
X-IN-FWS-0020-2006	       Independent Auditors’ Report on the U.S. Fish
                          and Wildlife Service’s Financial Statements for
                          Fiscal Years 2006 and 2005 (08/14/2007);
                          2 Recommendations

X-IN-FWS-0018-2007	       Independent Auditors’ Report on the U.S. Fish
                          and Wildlife Service Financial Statements for
                          Fiscal Years 2007 and 2006 (01/18/2008);
                          1 Recommendation

X-IN-FWS-0005-2008	       Management Letter Concerning Issues Identified
                          During the Audit of the U.S. Fish and Wildlife
                          Service Financial Statements for Fiscal Years
                          2007 and 2006 (01/28/2008); 1 Recommendation




                                                                                          59
 Appendix Six




                Contracts and Grants
                National Park Service
                2000-E-0607	             Costs Billed By Harrison & Palmer, Inc., From
                                         April 1, 1996, Through June 23, 1999, Under Na-
                                         tional Park Service Contract
                                         143CX300094906 (08/08/2000);
                                         1 Recommendation; $52,703 Unresolved

                2000-E-0706	             Audit of Costs Billed by Southern Insulation,
                                         Inc., From November 21, 1994, Through June
                                         1, 1999, Under National Park Service Contract
                                         1443CX300094906 (09/29/2000); 1 Recommenda-
                                         tion; $86,262 Unresolved

                2001-E-0035	             Audit of Costs Billed by Callas Contractors,
                                         Inc., From January 1, 1997, Through June 1,
                                         1999, Under National Park Service Contract
                                         1443CX300094906 (11/07/2000); 1 Recommenda-
                                         tion; $16,425 Unresolved

                2001-E-0036	             Audit of Costs Billed by Capitol Mechanical Con-
                                         tractors, Inc., From January 1, 1997, Through June
                                         1, 1999, Under National Park Service Contract
                                         1443CX300094906 (11/07/2000); 1 Recommenda-
                                         tion; $98,194 Unresolved

                2001-E-0244	             Audit of Costs Billed by E.M.S. Consultants,
                                         Inc., From May 1, 1996, Through June 1,
                                         1999, Under National Park Service Contract
                                         1443CX300094906 (02/27/2001); 1 Recommenda-
                                         tion; $327,330 Unresolved

                2001-E-0336	             Audit of Costs Billed by JCM Control Systems,
                                         Inc. From January 1, 1994, Through July 16,
                                         1999, Under National Park Service Contract
                                         1443CX300094906 (04/23/2001); 1 Recommenda-
                                         tion; $109,865 Unresolved

                U.S. Fish and Wildlife Service
                R-GR-FWS-0029-2003	      U.S. Fish and Wildlife Service Federal Assistance
                                         Grants Administered by the State of Washington,
                                         Department of Fish and Wildlife, From
                                         July 1, 2000, Through June 30, 2002 (03/21/2004);
                                         1 Recommendation

60
                                                                         Appendix Six




R-GR-FWS-0025-2003	   U.S. Fish and Wildlife Service Federal Assis-
                      tance Grants Administered by the State of New
                      York, Department of Environmental Conserva-
                      tion, Division of Fish, Wildlife, and Marine
                      Resources, From April 1, 2000, Through March
                      31, 2002 (05/06/2004); 1 Recommendation

R-GR-FWS-0014-2004	   U.S. Fish and Wildlife Service Federal Assis-
                      tance Grants Administered by the Common-
                      wealth of Puerto Rico, Department of Natural
                      and Environmental Resources, From July 1,
                      2001, Through June 30, 2003 (09/19/2005);
                      9 Recommendations; $38,577 Unresolved

R-GR-FWS-0008-2004	   U.S. Fish and Wildlife Service Federal Assis-
                      tance Grants Administered by the State of Idaho,
                      Department of Fish and Game, From
                      July 1, 2001, Through June 30, 2003
                      (09/30/2005); 15 Recommendations;
                      $519,469 Unresolved

R-GR-FWS-0004-2005	   U.S. Fish and Wildlife Service Federal As-
                      sistance Grants Administered by the State of
                      Illinois, Department of Natural Resources,
                      From July 1, 2002, Through June 30, 2004
                      (03/31/2006); 12 Recommendations;
                      $553,977 Unresolved




                                                                                    61
 Appendix Seven




                  Summary of Reports Over 6 Months
                  Old Pending Corrective Action
                  This is a listing of audit and evaluation reports more than 6 months old with
                  management decisions for which corrective action has not been completed. It
                  provides report number, title, issue date, and the number of recommendations
                  without final corrective action. These audits and evaluations continue to be
                  monitored by the Focus Leader for Management Control and Audit Follow-up,
                  Assistant Secretary, Policy, Management, and Budget, for completion of
                  corrective action.

                  Bureau of Indian Affairs
                  2003-I-0055	                 Evaluation of the Bureau of Indian Affairs’ Process
                                               to Approve Tribal Gaming Revenue Allocation Plans
                                               (06/11/2003); 3 Recommendations

                  X-IN-BIA-0006-2005	          Independent Auditors’ Report on the Bureau of Indian
                                               Affairs’ Financial Statements for Fiscal Years 2005
                                               and 2004 (12/20/2005); 1 Recommendation

                  C-IN-BIA-0017-2005	          Bureau of Indian Affairs, Radio Communications
                                               Program (01/31/2007); 6 Recommendations

                  Bureau of Land Management
                  2000-I-0377	                 Native American Graves Protection and Repatriation
                                               Activities Bureau of Land Management (05/05/2000);
                                               1 Recommendation

                  C-IN-BLM-0013-2005	          Public Safety Issues at the Saginaw Hill Property
                                               Bureau of Land Management (03/15/2005); 1 Recom-
                                               mendation	

                  C-IN-BLM-0012-2007	          Flash Report - Environmental, Health and Safety
                                               Issues at Bureau of Land Management Ridgecrest
                                               Field Office Rand Mining District, CA (09/12/2007);
                                               6 Recommendations




62
                                                                          Appendix Seven




Bureau of Reclamation
1999-I-0133	            Audit Report on the Identification of Unneeded
                        Acquired Lands (12/21/1998);
                        1 Recommendation

Minerals Management Service
X-IN-MMS-0010-2005	     Independent Auditors’ Report on the Minerals
                        Management Service’s Financial Statements for
                        Fiscal Years 2005 and 2004 (12/08/2005);
                        1 Recommendation

Multi-Office Audits
E-IN-MOA-0008-2004	     Department of the Interior Workers’ Compensa-
                        tion Program (05/09/2005); 3 Recommendations

C-IN-MOA-0049-2004	     Department of the Interior Concessions Manage-
                        ment (06/13/2005); 1 Recommendation

W-IN-MOA-0002-2005	     Hazardous Fuels Reduction Program,
                        Department of the Interior (04/17/2006);
                        1 Recommendation

X-IN-MOA-0018-2005	     FY2005 Department of the Interior Purchases
                        Made on Behalf of the Department of Defense
                        (01/09/2007); 3 Recommendations

C-IN-MOA-0007-2005	     U.S. Department of the Interior Radio
                        Communications Program (01/30/2007);
                        7 Recommendations

W-IN-MOA-0008-2005	     Private Uses of Public Lands, National Park
                        Service and Bureau of Land Management
                        (04/10/2007); 6 Recommendations	

X-IN-MOA-0012-2007	     Independent Auditors’ Report on the Department
                        of the Interior Financial Statements for Fiscal
                        Years 2007 and 2006 (11/13/2007);
                        2 Recommendations

X-IN-MOA-0006-2008	     Management Letter Concerning Issues Identified
                        During the Audit of the Department of the Inte-
                        rior Financial Statements for Fiscal Years 2007
                        and 2006 (02/15/2008); 12 Recommendations



                                                                                     63
 Appendix Seven




                  Y-EV-MOA-0001-2008	     Controls Over the Transit Benefit Program at the
                                          Department of the Interior (03/18/2008);
                                          5 Recommendations

                  C-IN-MOA-0011-2006	     Health and Safety Concerns at Department of the
                                          Interior’s Facilities (03/28/2008);
                                          6 Recommendations

                  National Park Service
                  1998-I-0406 	           Follow-up of Recommendations Concerning
                                          Utility Rates Imposed by the National Park Service
                                          (04/15/1998); 5 Recommendations

                  2002-I-0045	            Recreational Fee Demonstration Program -
                                          National Park Service and Bureau of Land
                                          Management (08/19/2002); 1 Recommendation

                  P-IN-NPS-0105-2003	     National Park Service Management of Selected
                                          Grants in Hawaii (07/30/2004);
                                          2 Recommendations

                  C-IN-NPS-0013-2004	     The National Park Service’s Recording of Facility
                                          Maintenance Expenditures (01/26/2005);
                                          2 Recommendations

                  X-IN-NPS-0009-2005	     Independent Auditors’ Report on the National Park
                                          Service’s Financial Statements for Fiscal Years
                                          2005 and 2004 (12/21/2005); 2 Recommendations

                  P-IN-NPS-0074-2004	     Hawaii Volcanoes National Park: Improved Opera-
                                          tions Should Enhance Stewardship and Visitor
                                          Experience (03/31/2006); 5 Recommendations

                  X-IN-NPS-0017-2006	     Independent Auditors’ Report on the National Park
                                          Service Financial Statements for Fiscal Years 2006
                                          and 2005 (02/08/2007); 4 Recommendations

                  X-IN-NPS-0005-2007	     Management Letter Concerning Issues Identified
                                          During the Audit of the National Park Service Fi-
                                          nancial Statements for Fiscal Years 2006 and 2005
                                          (03/01/2007); 6 Recommendations

                  C-IN-NPS-0007-2007	     Flash Report - National Park Service: Hazardous
                                          Condition of Yosemite’s Wawona Tunnel Endan-
                                          gers Lives (06/20/2007); 3 Recommendations	




64
                                                                            Appendix Seven




Office of the Secretary
X-IN-OSS-0014-2007	       Independent Auditors’ Report on the Depart-
                          mental Offices Financial Statements for Fiscal
                          Years 2007 and 2006 (01/28/2008);
                          11 Recommendations

Office of the Special Trustee for Indian Affairs
Q-IN-OST-0002-2005 	      Independent Auditors’ Report on the Tribal and
                          Other Trust Funds and Individual Indian
                          Monies Trust Funds’ Financial Statements for
                          Fiscal Years 2005 and 2004, Managed by the
                          Office of the Special Trustee for American
                          Indians (11/22/2005); 2 Recommendations

U.S. Fish and Wildlife Service
1997-I-1305 	             Audit Report on the Automated Law Enforce-
                          ment System, U.S. Fish and Wildlife Service
                          (09/30/1997); 1 Recommendation

X-IN-FWS-0003-2006 	      Management Letter Concerning Issues Iden-
                          tified During the Audit of the U.S. Fish and
                          Wildlife Service’s Financial Statements for
                          Fiscal Years 2005 and 2004 (02/27/2006);
                          2 Recommendations

C-IN-FWS-0009-2007 	      Flash Report: Fish and Wildlife Service, Jack-
                          son National Fish Hatchery In Need of Immedi-
                          ate Action (05/08/2007); 2 Recommendations

X-IN-FWS-0020-2006	       Independent Auditors’ Report on the U.S. Fish
                          and Wildlife Service’s Financial Statements for
                          Fiscal Years 2006 and 2005 (08/14/2007);
                          3 Recommendations

X-IN-FWS-0018-2007	       Independent Auditors’ Report on the U.S. Fish
                          and Wildlife Service Financial Statements for
                          Fiscal Years 2007 and 2006 (01/18/2008);
                          2 Recommendations




                                                                                       65
 Appendix Eight




                  Summary of Insular Area Reports
                  With Open Recommendations More
                  Than 6 Months Old
                  These Insular Area reports contain recommendations made specifically to Insular
                  Area governors and other Insular Area officials, who do not report to the Secre-
                  tary of the Interior and who are not subject to the policy, guidance, and adminis-
                  trative oversight established by the Assistant Secretary, Policy, Management and
                  Budget.

                  Federated States of Micronesia
                  P-EV-FSM-0001-2007	           Kosrae State, Federated States of Micronesia: Prop-
                                                erty Accountability Process Needs to be Improved
                                                (10/17/2007); 5 Recommendations

                  Northern Mariana Islands
                  P-GR-NMI-0003-2005	           Evaluation of Saipan Public Health Facility Project:
                                                Oversight of Capital Improvement Projects, Common-
                                                wealth of the Northern Mariana Islands (06/08/2007); 4
                                                Recommendations

                  P-GR-NMI-0004-2005	           Evaluation of Office of Insular Affairs Oversight of
                                                Capital Improvement Projects, Commonwealth of the
                                                Northern Mariana Islands (06/08/2007);
                                                3 Recommendations; $1,240,144

                  U.S. Virgin Islands
                  V-IN-VIS-0004-2005	           Controls Over Video Lottery Terminal Operations, Gov-
                                                ernment of the Virgin Islands (06/08/2007);
                                                2 Recommendations

                  V-IN-VIS-0011-2006	           Collection of Outstanding Taxes and Fees, Government
                                                of the Virgin Islands (01/10/2008); 3 Recommendations




66
Appendix Eight




             67
General Information



      Cross-References to the Inspector General Act
                                                                                                        Page
      Section 4(a)(2)           Review of Legislation and Regulations                                   N/A*

      Section 5(a)(1)           Significant Problems, Abuses, and Deficiencies                           1-41

      Section 5(a)(2)           Recommendations for Corrective Action With Respect to Significant        1-41
                                Problems, Abuses, and Deficiencies

      Section 5(a)(3)           Significant Recommendations From Agency’s Previous Reports on           62-65
                                Which Corrective Action Has Not Been Completed

      Section 5(a)(4)           Matters Referred to Prosecutive Authorities and Resulting Convictions     43

      Section 5(a)(5)           Matters Reported to the Head of the Agency                               N/A

      Section 5(a)(6)           Audit Reports Issued During the Reporting Period                        46-51

      Section 5(a)(7)           Summary of Significant Reports                                           1-41

      Section 5(a)(8)           Statistical Table: Questioned Costs                                       54

      Section 5(a)(9)           Statistical Table: Recommendations That Funds Be Put to Better Use        55

      Section 5(a)(10)          Summary of Audit Reports Issued Before the Commencement of the
                                Reporting Period for Which No Management Decision Has Been Made         58-61

      Section 5(a)(11)          Significant Revised Management Decisions Made
                                During the Reporting Period                                              N/A

      Section 5(a)(12)          Significant Management Decisions With Which
                                the Inspector General Is in Disagreement                                 N/A

      Section 5(a)(13)          Information Described Under Section 804(b) of the Federal Financial
                                                                                                         N/A
                                Management Improvement Act of 1996




      *N/A: Not applicable to this reporting period




68
                                  General Information




      Contact Us


         By Mail
U.S. Department of the Interior
 Office of Inspector General
       1849 C St. NW
     Mail Stop 4428, MIB
   Washington, DC 20240




       By Internet
       www.doioig.gov



         By Phone
         202.208.4618


          By Fax
         202.208.6062




                                                    69
